APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
District Court of Tulsa County, State of
Oklahoma, Findings of Fact and Conclusions of
Law (November 12, 2020) ....................................... 10a
Amended Stipulations
(November 12, 2020) ........................................ 16a
Order of the Court of Criminal Appeals,
State of Oklahoma, Remanding for Evidentiary
Hearing (August 19, 2020) ..................................... 23a

App.1a
OPINION OF THE COURT OF
CRIMINAL APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JORDAN BATICE MITCHELL,

Appellant,
v.
THE STATE OF OKLAHOMA,

Appellee.
________________________
Case No. F-2018-78
An Appeal from the District Court of Tulsa County
the Honorable William D. Lafortune, District Judge
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ROWLAND, VICE PRESIDING JUDGE:
Appellant Jordan Batice Mitchell was tried by
jury and convicted of First Degree Murder in the District Court of Tulsa County, Case No. CF-2015-4207.
In accordance with the jury’s recommendation, the
Honorable William D. LaFortune sentenced Mitchell

App.2a
to life imprisonment with the possibility of parole.
Mitchell appeals raising the following issues:
(1) whether the State of Oklahoma had jurisdiction to prosecute him;
(2) whether the Information was unconstitutionally amended after trial began resulting in a
denial of due process;
(3) whether evidence presented at trial was sufficient to sustain his conviction for first
degree murder;
(4) whether the admission of other crimes evidence
violated his rights to due process of law;
(5) whether his trial was rendered unfair by the
admission of improper law enforcement
opinion testimony;
(6) whether the trial court abused its discretion
in admitting a gruesome and inflammatory
photograph; and
(7) whether he received the effective assistance
of trial counsel.
We find relief is required on Mitchell’s jurisdictional
challenge in Proposition 1, rendering his other claims
moot. Mitchell claims the State of Oklahoma did not
have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S. 140
S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Tulsa County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues: (a) Mitchell’s status as an Indian; and (b)

App.3a
whether the crime occurred within the boundaries of
the Muscogee Creek Reservation. Our order provided
that, if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary.
On September 25, 2020, the parties appeared before
the Honorable Tracy L. Priddy for a status conference.
The parties agreed at the status conference and subsequently entered a written Amended Stipulation in
which they agreed: (1) that Mitchell has some Indian
blood; (2) that he was a registered citizen of the
Muscogee Creek Nation on the date of the charged
offense; (3) that the Muscogee Creek Nation is a federally recognized tribe; and (4) that the charged crime
occurred within the Muscogee Creek Reservation. The
district court accepted the parties’ stipulation.
On November 12, 2020, the District Court filed
its Findings of Fact and Conclusions of Law. The District Court found the facts recited above in accordance
with the stipulation. The District Court concluded
that Mitchell is an Indian under federal law and that
the charged crimes occurred within the boundaries of
the Muscogee Creek Reservation. The District Court’s
findings are supported by the record. The ruling in
McGirt governs this case and requires us to find the
District Court of Tulsa County did not have jurisdiction
to prosecute Mitchell. Accordingly, we grant relief on
Proposition 1.

App.4a
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTION TO DISMISS. Pursuant to Rule 3.15,
Rules of the Oklahoma Court of Criminal Appeals, Title
22, Ch. 18, App. (20201, the MANDATE is ORDERED
to issue in twenty (20) days from the delivery and
filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
WILLIAM D. LAFORTUNE, DISTRICT JUDGE
APPEARANCES AT TRIAL AND REMAND
Donn F. Baker
Attorney at Law
238 Keetowah
Tahlequah, OK 74464
Counsel for Defendant
Steve Kunzweiler
District Attorney
Erik Grayless
First Asst. District Attorney
Sean Waters
Asst. District Attorney
Tulsa County Courthouse
500 South Denver
Tulsa, OK 74103
Counsel for State

App.5a
APPEARANCES ON APPEAL AND REMAND
Jamie D. Pybas
Division Chief
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
William R. Holmes
Theodore M. Peeper
Jennifer L. Crabb
Julie Pittman
Assistant Attorney Generals
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Concur
Hudson, J.: Specially Concur

App.6a
LUMPKIN, JUDGE: CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, U.S. 140 S.
Ct. 2452 (2020), I do so reluctantly. Upon the first
reading of the majority opinion in McGirt I initially
formed the belief that it was a result in search of an
opinion to support it. Then upon reading the dissents
by Chief Justice Roberts and Justice Thomas I was
forced to conclude the Majority had totally failed to
follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed to
apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following the
Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow the
rule of law and apply over a century of precedent and
history, and to accept the fact that no Indian reservations

App.7a
remain in the State of Oklahoma.1 The result seems
to be some form of “social justice” created out of whole
cloth rather than a continuation of the solid precedents
the Court has established over the last 100 years or
more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA) in
1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February 27,
1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support of
the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion as
set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s
mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and no
longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.9a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses convictions for
endangering others while eluding/attempting to elude
a police officer, possession of controlled dangerous
substance and various misdemeanor crimes from the
District Court of Okmulgee County based on the
Supreme Court’s decision in McGirt v. Oklahoma, 140
S. Ct. 2452 (2020). This decision is unquestionably
correct as a matter of stare decisis based on the Indian
status of Petitioner and the occurrence of the crimes
on the Creek Reservation. Under McGirt, the State
has no jurisdiction to prosecute Petitioner for the
crimes in this case. Instead, Petitioner must be
prosecuted in federal court. I therefore as a matter of
stare decisis fully concur in today’s decision. Further,
I maintain my previously expressed views on the
significance of McGirt, its far-reaching impact on the
criminal justice system in Oklahoma and the need for
a practical solution by Congress. See Bosse v. State,
2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur in
Results); Hogner v. State, 2021 OK CR 4, (Hudson, J.,
Specially Concurs); and Krafft v. State, No. F-2018340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).

App.10a

DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNY STATE OF OKLAHOMA
________________________
JORDAN BATICE MITCHELL,

Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,

Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2015-4207
Court of Criminal Appeals Case No. F-2018-78
Before: Tracy L. PRIDDY, District Judge
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 19, 2020. Jamie D. Pybas appeared on
behalf of Defendant/Appellant, Jordan Batice Mitchell,
whose appearance was waived. Assistant Attorney
General Julie Pittman appeared for Plaintiff/Appellee.
Tulsa County First Assistant District Attorney Erik
M. Grayless also appeared. An evidentiary hearing

App.11a
was not held pursuant to the parties’ announcement
that they had agreed and stipulated to facts supporting
the issues to be determined by this Court.
The Appellant, in Proposition 1 of his Brief-InChief asserted a claim that the District Court lacked
jurisdiction to try him as he is a citizen of the
Muscogee (Creek) Nation and his crime occurred
within the boundaries of the Muscogee (Creek) Nation
Reservation. Appellant’s claim raises two questions:
(a) his Indian status, and (b) whether the crime
occurred on the Creek Reservation. These issues
require fact-finding to be addressed by the District
Court per the OCCA Order Remanding.
I.

Jordan Batice Mitchell’s Status as an Indian

To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Mitchell has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact
1. Jordan Batice Mitchell is the named Defendant/Appellant in the above-entitled matter.
2. The parties hereto stipulated that the defendant, Jordan Batice Mitchell, is an enrolled member of
the Muscogee (Creek) Nation, with a blood quantum
of 15/128. His Roll Number is 52844, and his date of
enrollment is December 5, 1995. Mr. Mitchell’s Muscogee
1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81(10th Cir.
2001). Generally Goforth v. State, 1982 OK CR 48, ¶6, 644 P.2d
114, 116.

App.12a
(Creek) Nation Tribal Enrollment Verification form is
attached to this stipulation and the parties agree it
should be admitted into the record of this case. The
Muscogee (Creek) Nation is an Indian Tribal Entity
recognized by the federal government.2
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The
Court adopted the Amended Stipulations including
the attached documentation and made findings of fact
thereon. Jordan Batice Mitchell is the named Defendant/Appellant in this matter. Jordan Batice Mitchell
has a quantum of Creek Indian blood of 15/128. Although the term “Indian” is not statutorily defined and
various terms such as “sufficient”3, “substantial”4,
“significant percentage of”5 or “some”6 have been used
by courts in an attempt to define the quantity of
Indian Blood required to satisfy this inquiry, the OCCA
mandate ordered this Court to determine “whether
Mitchell had some Indian blood.”7 Thus, according to
the term used by the OCCA in its Order, this Court
concludes that Jordan Batice Mitchell has some
Indian blood.

2 Exhibit 1, Amended Stipulations 2.
3 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
4 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
5 Goforth v. State, 1982 OK CR 48, ¶6, 644 P.2d 114, 116.
6 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).
7 Order Remanding for Evidentiary Hearing August 19, 2020.

App.13a
The Court answers the second part of the inquiry
in the affirmative. The Court adopted the Amended
Stipulations including the Muscogee (Creek) Nation
Tribal Enrollment Verification form and made findings
of fact thereon. Jordan Batice Mitchell has been an
enrolled member of the Muscogee (Creek) Nation since
December 5, 1995 and was enrolled at the time the
crime was committed. The Muscogee (Creek) Nation
is an Indian Tribal Entity recognized by the federal
government. Therefore, Jordan Batice Mitchell is
recognized as an Indian by a tribe or the federal government.
Having answered both inquiries in the affirmative,
this Court concludes Jordan Batice Mitchell in an
Indian.
II.

Whether the Crime Occurred in Indian Country

The OCCA further ordered the District Court to
determine whether the crime occurred within the
boundaries of the Creek Reservation, referred to as
Indian Country.8 The Court finds as follows:
Findings of Fact
1. The parties hereto stipulated that the crime in
this case occurred at 7169 South 77th East Avenue, in
Tulsa, OK 74133. This address is within the boundaries
of the Muscogee (Creek) Nation Reservation—boundaries established through a series of treaties between

8 McGirt v. Oklahoma, 140 S. Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.14a
the Muscogee (Creek) Nation and the United States
government.9
2. The parties hereto stipulated that as determined
by the United States Supreme Court in McGirt v.
Oklahoma, 140 S. Ct. 2452, 207 L.Ed.2d 985 (2020),
the boundaries have been explicitly recognized as
establishing a reservation, and Congress has never
explicitly erased those boundaries and disestablished
the Muscogee (Creek) Nation Reservation, thus the
crimes occurred within Indian Country as defined by
18 U.S.C. § 1151(a).10
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the Amended Stipulations including
the attached documentation and made findings of fact
thereon. The crime occurred at a location identified by
a specific address that is within the boundaries of the
Muscogee (Creek) Nation’s Reservation. These boundaries were established through a series of treaties
between the Creek Nation and the United States, and
are explicitly recognized as a reservation defined by
18 U.S.C. § 1151(a). This Court concludes that the crime
for which Appellant was convicted occurred within the
Creek [Nation] Reservation. Based upon the Supreme
Court’s ruling in McGirt v. Oklahoma, 140 S. Ct. 2452
(2020), Muscogee (Creek) Nation Reservation is Indian
Country.
WHEREFORE, this Court finds that Jordan
Batice Mitchell is an Indian and the crime for which
9 Exhibit 1, Stipulations 1a.
10 Exhibit 1, Stipulations 1b.

App.15a
he was convicted occurred in Indian Country for purposes of the General Crimes Act, 18 U.S.C. § 1152 and
the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 12th day of November,
2020.
/s/Tracy L. Priddy
District Judge

App.16a
AMENDED STIPULATIONS
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNTY STATE OF OKLAHOMA
________________________
JORDAN BATICE MITCHELL,

Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,

Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2015-4207
Court of Criminal Appeals Case No. F-2018-78
This case is before the Court pursuant to an Order
Remanding for Evidentiary Hearing from the Oklahoma
Court of Criminal Appeals, dated August 19, 2020. In
that Order, the Court of Criminal Appeals directed
this Court to make findings of fact on only two issues:
(1) first, Jordan Mitchell’s Indian status, specifically
whether he has “some Indian blood” and “is recognized
as an Indian by a tribe or the federal government” and
(2) “whether the crime occurred within the boundaries
of the Creek Reservation.”
In response to the two questions this Court has
been directed to answer, the parties have reached the
following stipulations:

App.17a
1. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 7169 South
77th East Avenue, in Tulsa Oklahoma,
74133. This address is within the boundaries
of the Muscogee (Creek) Nation Reservationboundaries established through a series of
treaties between the Muscogee (Creek) Nation
and the United States government.

b.

As determined by the United States Supreme
Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452, 207 L.Ed.2d 985 (2020),
these boundaries have been explicitly recognized as establishing a reservation, and Congress has never explicitly erased those
boundaries and disestablished the Muscogee
(Creek) Nation Reservation, thus the crimes
occurred within Indian Country as defined
by 18 U.S.C. § 1151(a).

2. As to the status of the defendant, the parties
hereby stipulate and agree that the defendant, Jordan
Batice Mitchell, is an enrolled member of the Muscogee
(Creek) Nation, with a blood quantum of 15/128. His
Roll Number is 52844, and his date of enrollment is
December 5, 1995. Mr. Mitchell’s Muscogee (Creek)
Nation Tribal Enrollment Verification form is attached
to this stipulation and the parties agree it should be
admitted into the record of this case. The Muskogee
(Creek) Nation is an Indian Tribal Entity recognized
by the federal government.

App.18a
Respectfully submitted,
/s/ Jamie D. Pybas
Counsel for Defendant/
Appellant
/s/ Jennifer Crabb
Counsel for Plaintiff/
Appellee
/s/ Erik M. Grayless for
Steve Kunzweiler
Counsel for Plaintiff/ Appellee
Erik Grayless for #21197

App.19a
MUSCOGEE (CREEK) NATION
ENROLLMENT VERIFICATION
(AUGUST 1, 2018)
THE MUSCOGEE (CREEK) NATION
CITIZENSHIP BOARD
________________________
Director
Nathan Wilson
Managers
Andy Proctor
Allan Colbert Jr.
Board Members
Joan Henson
Elizabeth Yahola
Clarence Johnson
To: Whom It May Concern
From: Muscogee (Creek) Nation
Citizenship Board
P.O. Box 580
Okmulgee, OK 74447
Subject: Enrollment Verification
Jordan Batice Mitchell
I hereby certify that
DOB: 11xxx1993, is enrolled with the Muscogee
(Creek) Nation.
Enrollment Date: 12/5/1995;
Roll #: 52844
Degree of Muscogee (Creek) blood 15/128

App.20a

Sincerely,
/s/ Kari Harjo
Enrollment Specialist
Muscogee (Creek) Nation
Citizenship

App.21a
LETTER FROM MUSCOGEE (CREEK) NATION
(SEPTEMBER 15, 2020)
The Muscogee (Creek) Nation
Soniya McIntosh, Reality Manager
P.O. Box 580, Okmulgee, OK 74447
Phone (918) 732-7713
Fax (918) 758-0745
David Hill
Principal Chief
Del Beaver
Second Chief
Oklahoma Indigent Defense System
Attn: Jamie Pybas, Attorney
P.O. Box 926
Norman, OK 73070
RE: 7169 S. 77th E. Ave., Tulsa, OK 74133
Dear Ms. Pybas:
According to the records of this office, the property
and/or address which is described above is within the
Muscogee (Creek) Nation reservation boundaries.
Should you have any questions concerning this
report, please do not hesitate to call Rachel Langley,
Realty Specialist, at (918) 732-7704.
Sincerely,
/s/ Sonya McIntosh
Realty Manager

App.22a
LEGAL DESCRIPTION
TULSA COUNTY RECORDS (OK)
(SEPTEMBER 15, 2020)
Owner Information
Booth, Veronica
7169 S 77th East Ave
Tulsa, OK 741332820
Property Address
7169 S 77 Av E
W Tulsa 74133

{ Note: Additional property information such as
maps, photos, assessments, etc. omitted }

App.23a
ORDER OF THE COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JORDAN BATICE MITCHELL,

Appellant,
v.
THE STATE OF OKLAHOMA,

Appellee.
________________________
Case No. F-2018-78
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
Appellant Jordan Batice Mitchell was tried by jury
and convicted of First Degree Murder in the District
Court of Tulsa County, Case No. CF-2015-4027. In
accordance with the jury’s recommendation, the
Honorable William D. LaFortune sentenced Mitchell
to life imprisonment with the possibility of parole.
Mitchell must serve 85% of his sentence before he is
eligible for parole consideration. Mitchell appeals his
Judgment and Sentence.

App.24a
In Proposition 1 of his Brief-in-Chief, filed October
12, 2018, Mitchell claims the District Court lacked
jurisdiction to try him. Mitchell argues that he is a
citizen of the Muscogee (Creek) Nation and that his
crime occurred within the boundaries of the Creek
Reservation.1 Mitchell, in his direct appeal, relied on
jurisdictional issues addressed in Murphy v. Royal,
875 F.3d 896 (10th Cir. 2017), which was affirmed by
the United States Supreme Court in Sharp v. Murphy,
591 U.S. ___, 140 S. Ct. 2412 (2020) for the reasons
stated in McGirt v. Oklahoma, 591 U.S. ___, 140 S. Ct.
2452 (2020).2
Mitchell’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the District Court of Tulsa County, for an evidentiary hearing
to be held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
1 Mitchell also claims that defense counsel was ineffective for
failing to raise the issue of jurisdiction and asks the Court to
either supplement the record on appeal with documentation
bearing on the issue of jurisdiction or to order an evidentiary
hearing for the purpose of developing the record with regard to
his ineffective assistance of counsel claim.
2 On April 5, 2019, we held Mitchell’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
McGirt, Mitchell filed a Motion to Vacate Conviction and
Sentence and Remand to the District Court with Instructions to
Dismiss.

App.25a
the hearing process. Upon Mitchell’s presentation of
prima facie evidence as to his legal status as an Indian
and as to the location of the crime in Indian Country,
the burden shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Mitchell’s status as an Indian. The District
Court must determine whether (1) Mitchell has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.3
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s
findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001). See generally Goforth v. State, 1982 OK CR 48, ¶6, 644
P.2d 114, 116.

App.26a
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief-in-Chief and Appellant’s Motion to
Supplement the Record on Appeal or, in the Alternative,
Application for Evidentiary Hearing on Sixth Amendment Claim filed October 12, 2018; Appellee’s Answer
Brief filed February 11, 2019; and Appellant’s Reply
Brief filed March 1, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.27a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

ATTEST:
/s/ John D. Hadden
Clerk

